July 2, 2013

Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Ms. Sarah W. Wines
Acting Mission Director for Afghanistan
U.S. Agency for International Development


On June 6, 2013, I sent you the results of an audit of Chemonics International, Inc.
(Chemonics), which identified significant concerns about the firm meeting its responsibilities
under a federal contract. 1 SIGAR contracted with the audit firm of Crowe Horwath to perform a
financial audit of costs incurred by Chemonics under USAID’s contract supporting the
Alternative Livelihoods Program–Southern Region. Crowe Horwath issued a disclaimer of
opinion on the contract’s special purpose financial statement because of the following
matters:
       •   Chemonics refused to provide support necessary to demonstrate that the indirect
           costs charged to the contract were accurate;

       •   Crowe Horwath observed instances of noncompliance with the terms and conditions of
           the contract and applicable regulations that have a direct and material effect on
           amounts presented in the special-purpose financial statement; and

       •   Chemonics management was unwilling to represent to certain financial and
           compliance matters that are required components of management’s responsibilities
           under generally accepted government auditing standards.


I take such lack of cooperation with a federal audit and the findings reported by Crowe
Horwath very seriously. I am consulting with my General Counsel and my Assistant Inspector
General for Investigations about its implications as I plan additional audits and, potentially,
investigations involving Chemonics. Similarly, I urge you to consider appropriate actions for
USAID to take. Specifically, I suggest that you


       •   take special care in reviewing the $13,555,998 in questioned costs, the two material
           weaknesses, and six significant deficiencies reported;

       •   remind Chemonics about its responsibility to fully cooperate with federal audits as
           well as the criminal penalties for obstructing a federal audit, 2 and




1 SIGAR Financial Audit 13-1, Audit of Costs Incurred by Chemonics International, Inc in Support of

USAID’s Alternative Livelihoods Program–Southern Region, June 6, 2013.
2   18 U.S.C. § 1516.
    •   consider the matters identified above in evaluating future awards and award
        modifications involving Chemonics.


If you have questions or need additional information regarding the audit, please contact my
Assistant Inspector General for Audits and Inspections, Ms. Elizabeth Field, at 703-545-6006
or elizabeth.a.field9.civ@mail.mil.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction




SIGAR Alert 13-5


                                                                                               2
